U.S. Department of Justice
Office of the Inspector General




Report to Congress on Implementation
of Section 1001 of the USA PATRIOT Act
    (as required by Section 1001(3) of Public Law 107-56)




                                         February 2012
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report,
the 20th since enactment of the legislation in October 2001, summarizes the
OIG’s Section 1001-related activities from July 1, 2011, through December 31,
2011.


I. INTRODUCTION

      The OIG is an independent entity within the DOJ that reports to both the
Attorney General and Congress. The OIG’s mission is to investigate allegations
of waste, fraud, and abuse in DOJ programs and personnel and to promote
economy and efficiency in DOJ operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Marshals
Service (USMS), the U.S. Attorneys’ Offices, and other DOJ components. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division conducts independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division investigates allegations of bribery, fraud,
           abuse, civil rights violations, and violations of other criminal laws and
           administrative procedures that govern Department employees,
           contractors, and grantees.

       1  The OIG has authority to investigate allegations of criminal wrongdoing or
administrative misconduct by any Department employee, except for “allegations of misconduct
involving Department attorneys, investigators, or law enforcement personnel, where the
allegations relate to the exercise of the authority of an attorney to investigate, litigate, or
provide legal advice." 5 U.S.C. App. 3 § 8E(b)(2)-(3).



Office of the Inspector General, U.S. Department of Justice                         Page 1
      •   Oversight and Review Division blends the skills of attorneys,
          investigators, and program analysts to investigate or review high
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 445 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 6 Audit Division regional offices located
throughout the country.


II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.



Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Section 1001 requires the OIG to “review information and receive
complaints alleging abuses of civil rights and civil liberties by employees and
officials of the Department of Justice.”

      The OIG’s Investigations Division manages the OIG’s Section 1001
investigative responsibilities. The two units with primary responsibility for
coordinating these activities are Operations Branch I and Operations Branch II,
each of which is directed by a Special Agent in Charge and two Assistant
Special Agents in Charge (ASAC). 2 In addition, these units are supported by
Investigative Specialists and other staff assigned to the Investigative Support
Branch, who divide their time between Section 1001 and other responsibilities.

       The Investigations Division receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. Upon receipt, Division
ASACs review the complaints and assign an initial disposition to each matter,
and Investigative Specialists enter the complaints alleging a violation within the
investigative jurisdiction of the OIG or another federal agency into an OIG
database. Serious civil rights and civil liberties allegations relating to actions
of DOJ employees or contractors are typically assigned to an OIG Investigations
Division field office, where special agents conduct investigations of criminal
violations and administrative misconduct. 3 Occasionally, complaints are
assigned to the OIG’s Oversight and Review Division for investigation.

       Given the number of complaints OIG receives compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs. In certain referrals, the OIG requires the components to report the
results of their investigations to the OIG. In most cases, the OIG notifies the
complainant of the referral.

      Many complaints the OIG receives involve matters outside its
jurisdiction, and when those matters identify a specific issue for investigation,
the OIG forwards them to the appropriate investigative entity. For example,

        2 These units also coordinate the OIG’s review of allegations of misconduct by

Department employees: the Operations Branch I has primary responsibility for matters
involving the BOP, USMS, and the U.S. Attorney’s Offices; the Operations Branch II has
primary responsibility for matters involving the FBI, DEA, and ATF.
       3   The OIG can pursue an allegation either criminally or administratively. Many OIG
investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not result in prosecution. When this occurs, the OIG may continue the
investigation and treat the matter as a case for potential administrative discipline. The OIG’s
ability to handle matters criminally or administratively helps to ensure that a matter can be
pursued administratively even if a prosecutor declines to prosecute a matter.



Office of the Inspector General, U.S. Department of Justice                        Page 3
complaints of mistreatment by airport security staff or by the Border Patrol are
sent to the Department of Homeland Security OIG. The DOJ OIG has also
forwarded complaints to the Offices of Inspectors General at the Departments
of State, the Department of Health and Human Services, and the Postal
Service. Allegations related to the authority of a DOJ attorney to litigate,
investigate, or provide legal advice are referred to the DOJ Office of Professional
Responsibility. Allegations related solely to state and local law enforcement or
government officials that raise a federal civil rights concern are forwarded to
the DOJ Civil Rights Division.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, the OIG discusses
the complaint with the DOJ Civil Rights Division for possible prosecution. In
some cases, the Civil Rights Division accepts the case and requests additional
investigation by either the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.

   A. Complaints Processed During This Reporting Period

      Between July 1, 2011 and December 31, 2011, the period covered by this
report, the OIG processed 616 new civil rights or civil liberties complaints. 4

      Of these complaints, 533 did not fall within the OIG’s jurisdiction or did
not warrant further investigation. The vast majority (491) of these complaints
involved allegations against agencies or entities outside the DOJ, including
other federal agencies, local governments, or private businesses. When
possible, the OIG referred those complaints to the appropriate entity or advised
complainants of the entity with jurisdiction over their allegations. Some
complaints (42) raised allegations that were not suitable for investigation by the
OIG and could not be referred to another agency for investigation, generally
because the complaints failed to identify a subject or agency.

      The OIG found that the remaining 83 of the 616 complaints it received
involved DOJ employees or DOJ components and included allegations that
required further review. The OIG determined that 64 of these complaints
raised management issues generally unrelated to the OIG’s Section 1001 duties
and, consequently, referred these complaints to DOJ components for
appropriate handling. Examples of complaints in this category included
allegations by federal prisoners about the general prison conditions and by
others that the FBI did not initiate an investigation into particular allegations.



         4 These complaints include all matters in which the complainant made any mention of

a civil rights or civil liberties violation, even if the allegation was not within the OIG’s
jurisdiction.



Office of the Inspector General, U.S. Department of Justice                       Page 4
      The OIG identified a total of 19 complaints warranting further
investigation to determine whether Section 1001-related abuses occurred. The
OIG initiated its own investigations of 3 of these complaints, and referred 16
complaints to the BOP for further investigation. The next section of this report
describes the substance of these 19 complaints. Notably, none of the
complaints processed during this reporting period specifically alleged
misconduct by DOJ employees relating to the use of authorities contained in
the Patriot Act.

      The following is a synopsis of the new complaints processed during this
reporting period involving DOJ employees or components, including allegations
requiring further review:


      Complaints processed                               616

      Complaints unrelated to
      OIG’s Section 1001 responsibilities                533

      Total complaints within OIG’s
      jurisdiction warranting review                      83

      Management issues referred to
      DOJ components for handling                         64

      Possible Section 1001 complaints
      warranting investigation by OIG                         3

      Possible Section 1001 complaints
      warranting investigation by DOJ components          16


   B. Section 1001 Complaints

      1. Investigations Opened During This Reporting Period

       During this reporting period, the OIG opened 3 new Section 1001
investigations, all of which remain pending, and referred 16 Section 1001-
related complaints to the BOP for investigation. BOP completed investigations
of 6 of the complaints opened during this period; investigations of the
remaining 10 complaints remain pending. The OIG has requested that, upon
completion of the investigation of each referred complaint, BOP provide the OIG
a copy of its investigative report.




Office of the Inspector General, U.S. Department of Justice            Page 5
         a. New OIG Investigations

            •   The OIG is investigating allegations by a BOP inmate that BOP
                correctional officers in a Communications Management Unit
                (CMU), motivated by “anti-Muslim hostility and hatred,”
                attempted to instigate riots, stabbings, and killings among
                Muslim inmates by allowing some inmates access to other
                inmates’ files on the officers’ computer.

            •   The OIG is investigating allegations by a BOP inmate that two
                correctional officers spread rumors in the prison, and when the
                inmate complained, the correctional officers entered his cell,
                confiscated his “Ramadan food,” and damaged his Koran. The
                inmate also alleged that another correctional officer uttered
                racial and religious slurs and physically assaulted him while
                escorting him to recreation, resulting in a gash over the
                inmate’s eye that required stitches. The inmate alleged that he
                submitted more than 10 requests to the Health Services
                Department for additional medical care, but the staff refused to
                see him.

            •   The OIG is investigating allegations by a BOP inmate that
                Muslim inmates housed in a CMU were subjected to
                discriminatory and retaliatory measures by BOP staff because
                of their faith and “ethnic identity.”

         b. Completed BOP Investigations

            •   A BOP inmate alleged that a correctional officer displayed
                animosity toward Muslim inmates, “sh[ook] down” the cells of
                Muslim inmates more frequently than other inmates, and
                conducted inappropriate pat searches of Muslim inmates
                because he is aware they are sensitive about the genital area.
                The inmate further alleged that the correctional officer threw
                Arabic magazines in the trash instead of recycling them. The
                BOP attempted to interview the inmate regarding his
                allegations, but the inmate stated that he was unwilling to
                conduct an interview or sign an affidavit, and that he wanted to
                drop the matter because he would soon be transferring to
                another facility. The correctional officer denied the allegations.
                The BOP concluded there was insufficient evidence to
                substantiate the allegations and closed its investigation.

            •   Two BOP inmates alleged that a correctional officer harassed
                Muslim inmates by planting contraband in the Muslim inmates’
                cell and by writing an incident report on the Muslim inmates in


Office of the Inspector General, U.S. Department of Justice             Page 6
                retaliation for another inmate filing a complaint against the
                correctional officer. One of the inmates also alleged that the
                correctional officer restricted him from using a miswak (used for
                teeth-cleaning). The BOP’s investigation found no evidence that
                the correctional officer placed contraband in the inmates’ cell or
                that he targeted particular inmates. The correctional officer
                admitted that he would confiscate a miswak from an inmate if
                the inmate had it outside of his cell, but the BOP concluded
                that no policy exists about where a miswak may be used, and
                that a lack of rules and knowledge about the item did not
                constitute misconduct. The BOP concluded the allegations were
                not substantiated and closed the investigation.

            •   A Muslim inmate alleged that a BOP chaplain acted
                unprofessionally by mocking the Muslim faith and
                discriminated against him by not allowing him to participate in
                the religious diet meal program. BOP interviewed the chaplain,
                who denied the allegations, and the inmate refused to provide a
                statement regarding his allegations. The BOP also found that
                the inmate had refused religious meals and instead requested
                regular meal items, leading the prison staff to remove him from
                the program. The BOP concluded that the allegations were not
                substantiated and closed its investigation.

            •   A Muslim inmate alleged that two BOP Associate Wardens
                verbally abused him by making derogatory remarks about his
                religion, and that later on the same day a “use of force” team of
                BOP employees entered his cell and a correctional officer
                slammed his head into the wall. The inmate also alleged that
                he was placed in restraints for several hours, and that while he
                was restrained he was physically and verbally abused by the
                Associate Wardens and not permitted to use the restroom. BOP
                investigators conducted separate interviews of the Associate
                Wardens, both of whom denied verbally abusing the inmate or
                making any derogatory statements about his religion. The BOP
                investigation revealed that the inmate was forcibly removed
                from his cell because he refused to submit to restraints and
                ripped a vent grating from the wall of the cell. A videotape of
                the incident did not show the correctional officers striking the
                inmate or slamming his head into a wall. The BOP investigation
                determined that the inmate was examined by a physician
                assistant immediately after the use of force, and the inmate
                made no complaints about pain to his head. The BOP’s
                investigation also determined that the inmate was afforded the
                opportunity to use the restroom five times during the period he
                was restrained. The BOP determined there was insufficient


Office of the Inspector General, U.S. Department of Justice             Page 7
                evidence to substantiate the allegations and closed the
                investigation.

            •   A BOP inmate wrote a letter in Chinese and was attempting to
                send it to a newspaper. Upon translation of the letter by a BOP
                contractor, it appeared that the inmate alleged he was suffering
                from abuse within the prison from an unknown source and that
                a correctional officer accused him of being a terrorist. BOP
                investigators interviewed the inmate. He stated that the
                translation of the letter was incorrect and that he had written
                he was being mistreated psychologically and emotionally
                because the BOP would not allow him to participate in
                programs to help him succeed upon his release. The inmate
                also stated that he was not being physically abused, and that
                no one had called him a terrorist. The inmate clarified that the
                only programming he had been denied was a transfer closer to
                his family. According to the BOP, the inmate is not eligible for a
                transfer at this time. BOP determined the allegations were not
                substantiated and closed the investigation.

            •   The wife of a Muslim inmate at a BOP facility alleged that: (i)
                her husband was falsely accused of starting a riot and was
                placed in the Special Housing Unit (SHU); (ii) when her husband
                was escorted to the SHU, a correctional officer slammed his face
                into a wall and hit his face with the cell door as it was closing,
                resulting in a chipped tooth; (iii) BOP staff intentionally
                slammed her husband’s hands into the food slot of his cell; (iv)
                her husband was denied toilet tissue for an extended period of
                time; (v) he was not permitted to wear his kufi or have access to
                his Koran ; and (vi) a correctional officer said, “This guy needs a
                bullet in his head.” BOP conducted an investigation of the
                allegations. The correctional officers who escorted the inmate to
                the SHU denied shoving the inmate, and the inmate stated that
                he had no injuries. Although the inmate reported having a
                chipped tooth to a nurse, he claimed that he bumped into a wall
                and denied to the nurse being hit by staff. The inmate later
                refused treatment from a dentist. When interviewed by BOP
                investigators, the inmate stated that he wore his kufi when he
                went to recreation. BOP staff told BOP investigators that they
                did not tell the inmate that he could not wear his kufi to
                recreation. The BOP investigation found that a correctional
                officer attempted to resolve the inmate’s complaint about his
                Koran, but the inmate refused to discuss the matter. BOP staff
                denied verbally abusing the inmate, and not providing him with
                toilet tissue or other basic necessities. Another inmate told
                BOP investigators that on the dates in question, he and


Office of the Inspector General, U.S. Department of Justice               Page 8
                complainant had access to water, a toilet, and toiletries. The
                BOP’s investigation revealed there was insufficient evidence to
                support the allegations, and BOP closed the investigation.

         c. Continuing BOP Investigations

            •   A BOP inmate alleged that a correctional officer hindered his
                ability to use the BOP administrative process; denied him an
                Islamic Halal diet; denied him the opportunity for group
                worship five times a day; restricted him to only five personally
                owned Islamic books; denied him access to a Sunni Muslim
                chaplain; and denied him access to undiluted prayer oil. The
                BOP concluded its investigation of this matter after this
                reporting period ended, and the allegations were not sustained.
                The results of the investigation will be described further in our
                next report.

            •   Two BOP inmates alleged that BOP employees did not treat
                Muslim inmates the same as non-Muslim inmates. Specifically,
                they alleged that Muslim inmates are not allowed to invite
                guests to their religious services and are not permitted
                additional time in the chapel to study. The inmates also alleged
                that correctional officers placed contraband in the cells of
                Muslim inmates and removed legal documents from a Muslim
                inmate’s cell. The BOP concluded its investigation of this
                matter after this reporting period ended, and the allegations
                were not sustained. The results of the investigation will be
                described further in our next report.

            •   An inmate alleged that unknown BOP staff members
                discriminated against him because of his Muslim faith. The
                inmate alleged that the staff members are using a prior
                investigation of an assault on staff as a pretext to house him in
                the SHU, whereas the staff are in fact discriminating against
                him because of his religion.

            •   A Muslim inmate alleged that the BOP created “secret prisons”
                within certain facilities, referring to the CMUs, where inmates
                are subjected to psychological torture, humiliation, and
                intimidation. The inmate alleged that inmates are sent to the
                CMU without due process and that a high percentage of the
                CMU inmates are Muslim men who have been classified as
                terrorists without legitimate cause.

            •   A BOP inmate alleged that BOP employees did not allow him to
                maintain the proper religious diet in accordance with his


Office of the Inspector General, U.S. Department of Justice             Page 9
                Muslim faith, causing him to violate his religious guidelines.
                The inmate also alleged he was threatened with placement in
                the SHU for observing his religion.

            •   A Muslim inmate alleged that he feared that BOP correctional
                officers would pay someone to kill or assault him or that his
                cellmate would assault him because staff told the cellmate he
                was not being moved because of the complainant. The inmate
                further alleged that several complaints related to his torture
                have been ignored; that a correctional officer deliberately served
                him pork; and that he was denied medical treatment for nerve
                damage to his hand as a result of misapplication of restraints.

            •   A Muslim inmate alleged that he was assaulted by a
                correctional officer while being escorted to the recreation yard.
                The inmate believed he was assaulted because he was an Arab
                Muslim.

            •   A BOP inmate alleged that a BOP chaplain refused to allow
                Muslim inmates to use the prison chapel to conduct morning
                prayer during the month of Ramadan and that the chaplain
                refused to work with non-Christian inmates.

            •   A BOP inmate alleged that BOP employees were discriminating
                against Muslim inmates and housing them in the SHU with no
                explanation. The inmate also alleged that he was improperly
                placed in the SHU after another Muslim inmate assaulted a
                staff member; the complainant claimed that he was not involved
                in the assault.

            •   An inmate alleged that a BOP correctional officer harassed
                Muslim inmates and interfered with their attendance at
                religious services. The inmate further alleged that the
                correctional officer made hostile and harassing sexual
                comments to the inmates and touched them in an inappropriate
                manner.

      2. Pending Investigations Opened During Previous Reporting
         Periods

         a. Complaints Referred to BOP

         The OIG referred the following 6 complaints to the BOP for
         investigation during a prior reporting period; the investigations
         remain open. The OIG has requested that BOP provide a copy of its



Office of the Inspector General, U.S. Department of Justice              Page 10
         investigative report upon completion of the investigation of each
         referred complaint.

            •   A BOP employee alleged that an inmate told him that BOP staff
                directed him to stop helping Islamic inmates “because we don’t
                help terrorists.”

            •   A Muslim inmate alleged that a BOP correctional officer sprayed
                him with chemical agents even though he knew the inmate
                suffered from chronic asthma. The inmate also alleged he was
                restrained by his ankles and hands and left in an empty room
                without a toilet, sink, shower, bed, food, or water for two days.
                Further, the inmate alleged that a BOP correctional officer told
                him he hated Muslims, forbade him from practicing his religion,
                and told him that he had a pork chop sandwich for him if he
                was hungry. A BOP incident report indicated that the inmate
                refused to submit to restraints and that a team was required to
                extract the inmate from his cell. The inmate was medically
                assessed in a holding cell and given new clothing.

            •   A Muslim inmate alleged that a BOP lieutenant harassed Arab
                Muslim inmates; made false allegations against an Arab Muslim
                inmate and placed him in the SHU; and gave Muslim inmates
                “evil, hateful looks” for no reason other than their religion and
                ethnicity.

            •   A Muslim inmate alleged that (i) BOP employees suggested that
                all Taliban and Al-Qaida should be killed; (ii) BOP employees
                did not permit Muslim inmates to pray individually at the
                workplace or to return to their cells for prayers during their
                work assignments; (iii) BOP employees placed Muslim inmates
                in the SHU more frequently than non-Muslim inmates; (iv) BOP
                employees ignored Muslim inmates’ administrative remedy
                requests; and (v) BOP staff threatened Muslim inmates to
                discourage them from filing administrative remedy requests.
                The complainant stated that efforts to address these issues
                have been unsuccessful.

            •   A Muslim inmate alleged that: (i) his religious diet was
                suspended and that he was placed in “racial segregation”
                because of lies fabricated by the BOP chaplain and his
                assistant; (ii) BOP staff tampered with his legal mail and
                obstructed calls to his attorneys; (iii) BOP staff censured his
                participation during Islamic services and studies; (iv) the BOP




Office of the Inspector General, U.S. Department of Justice            Page 11
                inappropriately classified him as an international terrorist; and
                (v) a BOP lieutenant told him that the prison staff hated him.

            •   A Muslim inmate alleged that a BOP physician sexually
                harassed her during an examination. The inmate further
                alleged that she had been racially profiled since September 11,
                2001. The inmate also stated that a BOP employee would not
                permit her to wear loose-fitting clothing and long-sleeved shirts
                as required by her religion, and that she was placed in the SHU
                for having worn a loose-fitting shirt.

      3. Previously Opened Investigations Closed During This Reporting
         Period

      The OIG completed its investigation of one Section 1001-related matter
opened in a prior period. Additionally, the BOP completed investigations of 10
Section 1001-related complaints previously referred by the OIG in prior
periods. Upon completion of the investigation of each referred complaint, the
BOP provided the OIG a copy of its investigative report.

         a. Closed OIG Investigation

            •   The OIG investigated a Muslim inmate’s allegations that two
                BOP staff members told him they and others hated him because
                he is Arab and Muslim and that the two employees made
                inappropriate statements to him relating to his religious
                articles. The inmate alleged further that BOP correctional
                officers directed other inmates to attack him; and that he did
                not receive timely medical treatment for injuries resulting from
                the assault; that several prison officials threatened him in an
                effort to force him to withdraw these complaints; that his mail
                was withheld from him; and that he was denied a transfer to
                another facility. The OIG investigation found no evidence that
                the inmate was assaulted by inmates who were working at the
                direction of prison officials, or that prison officials threatened
                him with retaliation if he did not recant his statements about
                the alleged assault. Nor did the investigation substantiate the
                allegation that the inmate did not receive immediate medical
                attention after being assaulted. The investigation determined
                that the inmate was medically assessed by a nurse immediately
                after he reported an assault. Based on this assessment, the
                inmate was provided routine, non-emergency follow-up care,
                and x-ray results were negative for fractures. The inmate’s
                remaining allegations, including that BOP intentionally delayed
                delivery of his mail, that the inmate was denied a transfer
                because he was Muslim, and that BOP staff made
                discriminatory remarks to the inmate because of his religious

Office of the Inspector General, U.S. Department of Justice             Page 12
                beliefs, were not substantiated. The OIG provided its report to
                the BOP.

         b. Closed BOP Investigations

            •   A Muslim inmate alleged that a BOP employee often talked
                about a post-traumatic stress disorder and told the inmate that
                he could kill him and get away with it. The inmate further
                alleged that the BOP employee spoke negatively about
                Egyptians and called the inmate a “suicide bomber.” The
                inmate told BOP investigators that he did not wish to make a
                statement regarding this incident. The BOP employee denied
                speaking badly about Egyptians or calling the complainant a
                “suicide bomber,” and denied being a racist. The BOP
                determined that the allegations were not substantiated and
                closed the investigation.

            •   A Muslim inmate alleged that a correctional officer exhibited a
                pattern of ridiculing Islamic prayers and religious beliefs, and
                that the correctional officer intentionally attempted to create
                problems with Muslim inmates. The BOP investigation
                concluded that the correctional officer did not disrespect,
                interfere, or disrupt any Muslim prayers and that he did not
                attempt to provoke or harass the Muslim inmates. BOP
                determined that the allegations were not substantiated and
                closed its investigation.

            •   A Muslim inmate alleged that a BOP employee encouraged staff
                to issue fabricated incident reports against him and other
                Muslim inmates in order to find Muslim inmates guilty of
                fictitious offenses. The inmate also alleged the BOP employee
                released information about inmates that placed their lives in
                jeopardy and that Muslim inmates received more restrictive
                sanctions than non-Muslim inmates for misconduct. The BOP
                investigation revealed that the inmate did not have firsthand
                knowledge of the allegations he made and that complainant had
                attempted to avoid disciplinary action in the past by alleging
                discrimination. When interviewed, the employee denied the
                allegations. The BOP determined that the allegations were not
                substantiated and closed its investigation.

            •   An inmate alleged that he was assaulted by a BOP employee
                because he is Muslim and of Arab descent, and that he was
                unjustly placed in the SHU for 28 days, which caused him to
                lose his job at the facility. The inmate also alleged that he was
                threatened with being sent to the SHU every time he asked staff


Office of the Inspector General, U.S. Department of Justice             Page 13
                about filing an administrative remedy. The inmate stated that
                he believed the staff possessed a deeply rooted hatred toward
                Muslim inmates. When interviewed, the inmate stated that he
                did not wish to comment further about the allegations. The
                BOP determined that the allegations were not substantiated and
                closed its investigation.

            •   A BOP employee reported that Muslim inmates told her that
                when the inmates were praying in the recreation yard, a BOP
                employee had approached them and began cursing at them.
                When one of the inmates tried to speak to the employee who
                cursed at them, the employee allegedly made a pejorative
                statement about their praying and told the inmates that they
                were on the “wrong side” and that “we can smoke you anytime
                we want.” When the employee was interviewed, he stated that
                he told the inmates that they were not permitted to pray on the
                recreation yard, but denied cursing at the inmates or making
                any other inappropriate or derogatory remarks. The BOP
                determined that the allegations were not substantiated and
                closed the investigation.

            •   A Muslim inmate alleged that BOP employees denied him his
                religious diet, and when he addressed the issue with a BOP
                staff member, he was told that he had no rights as a prisoner
                and that he would not be assisted in obtaining a religious diet.
                The inmate said he believed that he had been subjected to
                discrimination based on his religion and ethnicity. The BOP
                investigation found that these allegations were not
                substantiated. The investigation also revealed that the inmate
                had purchased several commissary items that did not comply
                with the specific requirements of the Muslim diet, and BOP
                policy stated that inmates who purchased or consumed non-
                certified foods from the commissary could be temporarily
                removed from the BOP’s religious diet program. The
                investigation further determined that the current menu at this
                facility was a pork-free diet that met Halal requirements. The
                BOP closed the investigation.

            •   A Muslim inmate alleged that a BOP chaplain attempted to deny
                Sunni Muslim inmates the right to pray in the prison chapel,
                issued a memorandum stating when Sunni Muslim inmates
                could pray, repeatedly showed her dislike of Sunni Muslim
                inmates, and used her official position to oppress Sunni Muslim
                inmates. The chaplain denied the allegations. A review of the
                memorandum issued by the chaplain revealed that it did not
                deviate from the Correctional Programs Division guidance


Office of the Inspector General, U.S. Department of Justice             Page 14
                memorandum. The BOP determined that the allegations were
                not substantiated and closed the investigation.

            •   A Muslim inmate alleged that a BOP chaplain locked Muslim
                inmates in a room for prayers because he did not like them
                standing in the hallway outside his office. The complainant also
                alleged that the chaplain told other inmates that “Muslims love
                to read their Koran but always want to blow up something.”
                The investigation determined that the chaplain exercised his
                authority to maintain order within the chapel areas to allow all
                inmates to participate in their particular faith practices
                undisturbed. The chaplain denied making any derogatory
                comments to the inmates. BOP determined that the allegations
                were not substantiated and closed the investigation.

            •   A Muslim inmate alleged that BOP employees physically and
                mentally tortured him, provided him with meals containing pork
                products contrary to his religious diet, and placed him in the
                SHU without cause. The BOP was unable to interview the
                complainant because he refused to cooperate with investigators,
                but BOP investigators reviewed documentary and video
                evidence and found no evidence to support the allegations. The
                BOP closed the investigation.

            •   A Muslim inmate alleged that the BOP chaplain and the
                Religious Services Department were discriminating against non-
                Christian religious groups, especially the Moorish Science
                Temple, an Islamic group. The inmate alleged that the chaplain
                had a history of showing unprofessional conduct toward the
                Moorish community and attempting to cover up his
                unprofessional behavior. The inmate stated that the claims of
                the Moorish Science Temple inmates have not been successfully
                addressed through the administrative remedy process. Based
                on statements from the chaplain and other BOP staff, the
                investigation determined that the chaplain and the Religious
                Services Department had not discriminated against the Moorish
                Science Temple, nor had the staff acted unprofessionally. The
                inmate also stated his opinion that the chaplain’s conduct had
                improved since the inmate made his allegations. BOP therefore
                determined that the allegations were not substantiated and
                closed the investigation.




Office of the Inspector General, U.S. Department of Justice           Page 15
IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has completed or is conducting
several such reviews that relate to the OIG’s duties under Section 1001. These
reviews are discussed in this section of the report.

   A. Review of the FBI’s Activities Under Section 702 of the Foreign
      Intelligence Surveillance Act Amendments Act of 2008

        Section 702 of the Foreign Intelligence Surveillance Act (FISA)
Amendments Act of 2008 (Act) authorizes the targeting of non-U.S. persons
reasonably believed to be outside the United States for the purpose of acquiring
foreign intelligence information. As required by the Act, the OIG is reviewing
the number of disseminated FBI intelligence reports containing a reference to a
U.S. person identity, the number of U.S. person identities subsequently
disseminated in response to requests for identities not referred to by name or
title in the original reporting, the number of targets later determined to be
located in the United States, and whether communications of such targets were
reviewed. In addition, the OIG is reviewing the FBI’s compliance with the
targeting and minimization procedures required under the Act.

   B. Review of the Department’s Use of Material Witness Warrants

        The OIG is reviewing the Department’s use of the material witness
warrant statute, 18 U.S.C. § 3144. Pursuant to the OIG’s responsibility under
Section 1001 of the Patriot Act, the OIG is investigating whether the
Department’s post-9/11 use of the statute in national security cases violated
civil rights and civil liberties. The OIG is also examining the Department’s
controls over the use of material witness warrants and trends in the use of
material witness warrants over time, as well as issues such as length of
detention, conditions of confinement, and access to counsel.

   C. Review of the FBI’s Use of National Security Letters, Section 215
      Orders, and Pen Register and Trap-and-Trace Authorities under FISA
      from 2007 through 2009

       The OIG is again examining the FBI’s use of national security letters
(NSLs) and Section 215 orders for business records. Among other issues, this
review is assessing the FBI’s progress in responding to the OIG’s
recommendations in its first and second reports on the FBI’s use of NSLs, and
in its report on the FBI’s use of exigent letters and other informal requests for
telephone records. A focus of this review is the NSL subsystem, an automated
workflow system for NSLs that all FBI field offices and Headquarters divisions
have been required to use since January 1, 2008, and the effectiveness of the


Office of the Inspector General, U.S. Department of Justice             Page 16
subsystem in reducing or eliminating noncompliance with applicable
authorities. The current review is also examining the number of NSLs issued
and Section 215 applications filed by the FBI between 2007 and 2009, and any
improper or illegal uses of these authorities. In addition, the review is
examining the FBI’s use of its pen register and trap-and-trace authority under
FISA.

   D. Audit of the FBI’s Management of Terrorist Watchlist Nominations
      and Encounters with Watchlisted Subjects

       The OIG is continuing its audit of the FBI’s management of terrorist
watchlist nominations and encounters with watchlisted subjects. In fiscal
years 2008 and 2009, the OIG conducted two audits related to the FBI terrorist
watchlist nomination practices. In these audits, the OIG found that the FBI’s
procedures for processing international terrorist nominations were, at times,
inconsistent and insufficient, causing watchlist data used by screening
agencies to be incomplete and outdated. The OIG found that the FBI failed to
nominate for watchlisting many subjects of its terrorism investigations, did not
nominate many others in a timely manner, and did not update or remove
watchlist records as required. As a result of these reviews, the FBI reported
that it had undertaken several initiatives and implemented new processes and
guidelines to enhance its watchlisting system.

       The objectives of the OIG’s ongoing audit are to: (1) assess the impact of
recent events on the FBI’s watchlisting system; (2) evaluate the effectiveness of
the initiatives recently implemented by the FBI to ensure the accuracy,
timeliness, and completeness of the FBI’s watchlisting practices, including
watchlist nominations, modifications, and removals; and (3) determine whether
the FBI is appropriately managing terrorist-related information obtained
through the encounter process.

   E. Audit of the Department’s Efforts to Ensure Safe and Secure
      Non-Federal Detention Facilities

       The OIG is conducting an audit of the Department’s efforts to ensure safe
and secure non-federal detention facilities. This audit originally focused on the
Office of the Federal Detention Trustee’s efforts but was expanded to recognize
the role of the USMS in achieving this same outcome. According to a recent
Bureau of Justice Statistics report, between 2006 and 2010, the number of
federal detainees housed in non-federal detention facilities increased from
43,563 to 48,191. This audit seeks to determine whether the Department’s
oversight efforts ensure a safe, secure, and humane environment for federal
detainees held in these non-federal detention facilities.




Office of the Inspector General, U.S. Department of Justice            Page 17
   F. Audit of the FBI’s Foreign Terrorist Tracking Task Force

      The OIG is conducting an audit of the FBI’s Foreign Terrorist Tracking
Task Force (FTTTF). The FTTTF was created in October 2001 pursuant to
Homeland Security Presidential Directive-2 (HSPD-2). According to HSPD-2,
the FTTTF is to coordinate programs with other federal agencies to: (1) deny
entry into the United States of aliens associated with, suspected of being
engaged in, or supporting terrorist activity; and (2) locate, detain, prosecute, or
deport any such aliens already present in the United States.

       This audit seeks to determine whether: (1) the FBI has implemented a
viable FTTTF strategy to locate and track suspected terrorists and their
supporters; (2) the FTTTF’s coordination with law enforcement and intelligence
agencies, as well as other outside entities, has enhanced its abilities; and (3)
the FBI has appropriately managed terrorist-related information maintained by
the FTTTF.


V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to include in this report “a description of
the use of funds appropriations used to carry out this subsection.”

       During this reporting period, the OIG spent approximately $631,225 in
personnel costs, $15,761 in travel costs, and $193 in miscellaneous costs, for a
total of $647,179 to implement its responsibilities under Section 1001. The
total personnel and miscellaneous costs reflect the time and funds spent by
OIG special agents, inspectors, and attorneys who have worked directly on
investigating Section 1001-related complaints, conducting special reviews, and
implementing the OIG’s responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice              Page 18
